WR-B-99-06




     AUDIT
    REPORT

                               PLANNED WASTE SHIPMENTS
                                        TO THE
                              WASTE ISOLATION PILOT PLANT




                                          AUGUST 1999




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                                                 August 31, 1999


MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENVIRONMENTAL MANAGEMENT

FROM:                   Phillip L. Holbrook, (Signed)
                        Assistant Inspector General for Audit Services
                        Office of Inspector General

SUBJECT:                INFORMATION: Audit Report on "Planned Waste Shipments to the Waste Isolation
                        Pilot Plant"

BACKGROUND

The Waste Isolation Pilot Plant (WIPP), which received its first shipment of waste in March 1999, was designed
and constructed to safely dispose of transuranic (TRU) waste located at generator sites throughout the Department
of Energy's weapons complex. The Carlsbad Area Office (Carlsbad) was established to operate WIPP and
manage the Nation's TRU waste disposal efforts. To assist the waste disposal efforts, Carlsbad prepared a
National TRU Waste Management Plan (Management Plan). The objective of this audit was to determine if the
Management Plan was current and consistent with the information provided by the generator sites.

RESULTS OF AUDIT

The Management Plan was not current or consistent with the data at the generator sites and could not be used to
measure target dates for shipping waste to WIPP. Planned schedules were based on the generator sites securing
full funding, but the largest sites anticipated funding at approximately 75 percent. Although this has not adversely
affected the movement of waste to date, there is no assurance that generator sites or WIPP will be able to close by
the dates cited in the Management Plan unless full funding is received. Therefore, we recommended that the Office
of Environmental Management require Carlsbad, after receipt of the Resource Conservation and Recovery Act,
Part B hazardous waste permit, update its Management Plan; attempt to secure full funding for each generator site;
and inform Congress of the impact on the generator sites and WIPP if sufficient funding is not secured.

MANAGEMENT REACTION

Management generally concurred with the recommendations and indicated that a revised Management Plan will be
issued later in calendar year 1999.
PLANNED WASTE SHIPMENTS TO THE WASTE ISOLATION
PILOT PLANT

TABLE OF
CONTENTS



                Overview

                Introduction and Objective.......................................................1


                Conclusions and Observations ..............................................1


                Waste Shipments to WIPP


                Details of Finding.....................................................................3


                Recommendations and Comments.......................................5


                Appendices


                Scope and Methodology.........................................................6


                Related Office of Inspector General Reports........................7

                Management's Response.......................................................8
Overview
INTRODUCTION      The Waste Isolation Pilot Plant (WIPP) was designed and constructed to
AND OBJECTIVE     safely dispose of transuranic (TRU) waste located at generator
                  sites throughout the Department of Energy’s (DOE) weapons complex.
                  WIPP is the world’s first underground repository to permanently dispose of
                  defense-generated TRU waste. TRU waste consists of such items as
                  clothing, tools, and rags contaminated with small amounts of radioactive
                  elements. Approximately $2 billion has been invested since the mid-1970s
                  to construct and certify the WIPP as the official repository for TRU waste.
                  In March 1999, WIPP received its first shipment of waste.

                  The Carlsbad Area Office (Carlsbad) was established to operate WIPP and
                  manage the Nation’s TRU waste disposal efforts. To demonstrate that
                  WIPP was ready and able to receive and dispose of waste from DOE
                  generator sites, Carlsbad published a National TRU Waste Management
                  Plan (Management Plan) even though it was not directed to do so. In
                  December 1997, Carlsbad updated its Management Plan
                  to reflect an expected opening date of May 1998. The Management Plan
                  was fully integrated with the milestones and activities of the WIPP Disposal
                  Decision Plan. The Management Plan, however, is the only DOE plan that
                  coordinates site-specific waste management planning at the generating site
                  facilities with WIPP’s waste handling and disposal operations. The objective
                  of our audit was to determine whether the Management Plan was current and
                  consistent with the information provided by the generator sites.

                  The Management Plan was not current or consistent with the information at
CONCLUSIONS AND   the generator sites. Specifically, the Management
OBSERVATIONS      Plan was based on the opening of WIPP in May 1998 and on fully funded
                  site-specific budgets. However, DOE did not open WIPP
                  until March 1999 and had not fully funded the generator sites. Thus, the
                  Management Plan showed that WIPP was scheduled to receive a greater
                  volume of waste than generator sites could ship through Fiscal Year (FY)
                  2006. Since generator sites cannot ship the volume of waste described in
                  the Management Plan without budget increases, there is no assurance that
                  generator sites or WIPP will be able to close by the dates cited in the
                  Management Plan.

                  Earlier reports involving WIPP showed that management felt that it was
                  important to demonstrate that WIPP was fully ready to operate as soon




Page 1                                                Introduction And Objective/
                                                      Conclusions And Observations
         as its legal complications were resolved. Thus, it was consistent
         for Carlsbad to prepare a Management Plan that demonstrated that
         WIPP was fully capable of handling and disposing of waste from
         most generator sites by FY 2006.

         In our opinion, the matters discussed in this report should be
         considered when preparing the yearend assurance memorandum
         on internal controls.




                                          __________(Signed)______
                                          Office Of Inspector General




Page 2                                      Conclusions And Observations
Waste Shipments To WIPP
Planning              Federal agencies are required to develop formal plans for measuring
Considerations        performance. The plans should layout long-term goals that describe
                      in general terms what the agency plans to accomplish. Annual performance
                      plans are required that tie daily activities into the
                      agency’s long-term strategic goals. There should be an apparent relationship
                      between this information and data within DOE’s budget request. Budgets
                      should include measurable and results-oriented performance data to which
                      programs and contractors can be held accountable. It is important for
                      performance data to be written in
                      an objective, results-oriented, and measurable form so that actual progress
                      toward predetermined target levels of performance can be determined. As
                      part of its management responsibilities, therefore, Carlsbad prepared its
                      Management Plan to provide Carlsbad with performance targets and to
                      assist the Office of Environmental Management in making informed decisions
                      that arise in the shipment
                      of TRU waste to WIPP.

                      Generally, Carlsbad's December 1997 Management Plan responded
                      to the expectation of establishing performance measures. Thus, the
                      Management Plan coordinated site-specific management planning at
                      the generating sites with the waste handling and disposal operations
                      at WIPP. It also included waste processing and disposal schedules to show
                      that most sites could dispose of TRU waste inventories by the
                      end of FY 2006. However, the Management Plan was based on the
                      assumption that WIPP would begin receiving waste in May 1998 and that
                      DOE would secure site-specific budgets for the generator sites to meet
                      target dates for shipping waste to WIPP.
Plan Not Current Or
Consistent            The Management Plan was not current or consistent with the data at
                      the generator sites and could not be used to measure target dates for
                      shipping waste to WIPP. The Management Plan schedules were based on
                      the generator sites securing full funding. However, the largest generator sites
                      anticipated funding at approximately 75 percent of the amount shown in the
                      Management Plan and this impacted the sites' ability to process and ship
                      waste. For instance, the Management Plan shows that the five largest
                      generators (at Los Alamos, Hanford, Idaho, Rocky Flats, and Savannah
                      River) which account for 97 percent of the total TRU waste will transfer
                      29,454 cubic meters of waste to WIPP by FY 2006. However, these
                      generators only planned to ship 23,489 cubic




Page 3                                                                       Details Of Finding
                         meters of waste during this period of time. Without additional funding, the
                         shipping process and schedules portrayed in the Management Plan cannot be
                         followed.

                         Despite inadequate funding, generator site officials successfully shipped
                         several truckloads of waste to WIPP after it opened in March 1999.
                         Further, shipping waste to WIPP will continue as long as DOE provides
                         adequate funding to the generator sites. Thus, the Management Plan did
                         demonstrate that WIPP was fully capable of handling the waste that could be
                         sent to it and DOE could dispose of TRU waste from most generator sites
                         by FY 2006 if the generator sites were fully funded.
Prepared From National
                         The shipping schedules portrayed in the Management Plan will not be met
Perspective
                         because it was based on a national perspective in that it (1) assumed a May
                         1998 opening, (2) was prepared to demonstrate WIPP's ability to dispose of
                         waste, and (3) based its shipping schedules on full funding. Thus, the
                         performance expectations established by Carlsbad have not been met.

Closure Delays           Without a Management Plan that is current and consistent with the funding at
Could Occur              the generator sites, DOE cannot effectively manage its operations and inform
                         the Congress of the impact of funding
                         restrictions or scheduling delays. If the funding does not equal the amounts
                         projected in the Management Plan, some waste disposal operations will not
                         be completed by FY 2006. Such a situation
                         could have severe implications for DOE sites, such as Rocky Flats,
                         committed to closing by specific dates. Further, any delay will probably
                         result in an increase in costs with respect to the operation
                         of generator sites and WIPP.




Page 4                                                                        Details Of Finding
RECOMMENDATIONS    We recommend that the Assistant Secretary for Environmental Management:

                      1. require Carlsbad, after receipt of the Resource Conservation and
                         Recovery Act, Part B hazardous waste permit for WIPP, update its
                         Management Plan to reflect a March 1999 opening date and delays
                         caused by under funding at the generator sites; and,

                      2. inform the Congress of the impact on the generator sites and WIPP if
                         funding is not sufficient to meet planned closure dates.

                   Management generally concurred with the recommendations and agreed to
MANAGEMENT
                   implement a corrective action plan. Management's comments are attached
REACTION
                   as Appendix 3.

                   Management’s comments are responsive to the recommendations.
AUDITOR COMMENTS




Page 5                                            Recommendations And Comments
Appendix 1
SCOPE         The audit was performed from June 30, 1998 through June 7, 1999, at
              Carlsbad, Los Alamos National Laboratory, Rocky Flats Environmental
              Technology Site, and Idaho National Engineering and Environmental
              Laboratory. In addition, we obtained FY 1997 TRU waste planning
              documents from the above sites, as well as from the Hanford Reservation
              and the Savannah River Site. Specifically, we focused
              on the Management Plan and planning documents for the five waste
              generator sites.

METHODOLOGY   To accomplish the audit objective, we reviewed DOE guidance regarding
              planning and the Management Plan. We compared FY 1997 generator site
              TRU waste planning documents to the Management Plan. In addition, we
              reviewed the DOE’s Accelerating Cleanup: Paths to Closure report, the
              TRU Waste Baseline Inventory Report, the DOE Strategic Plan, and the
              performance requirements required in the Government Performance and
              Results Act. We interviewed personnel from Headquarters, Carlsbad, and
              DOE generator sites.

              The audit was conducted in accordance with generally accepted Government
              auditing standards for performance audits, which included tests of internal
              controls and compliance with laws and regulations to the extent necessary to
              satisfy the audit objective. Because the review was limited, it would not
              necessarily have disclosed all internal control deficiencies that may have
              existed at the time of our audit. We verified computer generated data used
              during the audit.

              The exit conference was waived by the Office of Environmental Management
              on July 28, 1999.




Page 6                                                    Scope And Methodology
Appendix 2
                                   Related Office Of Inspector General Reports


This audit related to an overly optimistic projection of funding levels at generator sites that will transport TRU
waste to WIPP. Prior reports related to similar overly optimistic projections:

          • Audit of Selected Aspects of the Waste Isolation Pilot Plant Cost Structure, DOE/ IG-0356,
            August 22, 1994.

            Staffing levels were higher than needed at WIPP to meet its mission needs due to delays that
            extended the expected first receipt of TRU waste.

          • Audit of Labor Utilization at the Waste Isolation Pilot Plant, WR-B-94-02, February 11, 1994

    Staffing levels increased due to overly optimistic projections of the first receipt of TRU waste.




Page 7                                                     Related Office Of Inspector General Reports
Appendix 3




Page 8       Management Response
Appendix 3




Page 9       Management Comments
                                                                             Report No.: WR-B-99-06


                                CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and,
therefore, ask that you consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports. Please include answers to the
following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures
   of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may telex it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                Office of Inspector General (IG-1)
                U.S. Department of Energy
                Washington, D.C. 20585
                ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
  The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the following
                                              alternative addresses:


                   U.S. Department of Energy Management and Administration Home Page
                                         http://www.hr.doe.gov/ig
                                                    or
                                          http://www.ma.doe.gov


        Your comments would be appreciated and can be provided on the Customer Response Form
                                       attached to the report.
